                                    U.S. Department of Justice
                                      U.S. Attorney’s Office
                                    Western District of Texas

                                  Johnny Sutton, U.S. Attorney

FOR IMMEDIATE RELEASE                                                       Shana Jones, Special Assistant
                                                                   Daryl Fields, Public Information Officer
                                                                                            (210) 384-7452
October 22, 2004

              FORMER EL PASO SCHOOL ADMINISTRATORS INDICTED

        United States Attorney Johnny Sutton, Acting Special Agent in Charge Peter Smith,
U.S. Immigration and Customs Enforcement, and Ralph G. Diaz Special Agent in Charge,
Federal Bureau of Investigation, announced this morning the indictment of Mario Aguilar,
former Socorro Independent School District Interim Superintendent, his wife, Magdalena
Aguilar, principal of Vista Del Sol Elementary School and Raye Lokey, former Associate
Superintendent for Human Resources of Ysleta Independent School District. They have been
charged with Conspiracy to Commit Interstate Transportation in Aid of Racketeering. Also
indicted were Omni Consortium and its principle, Noel Cedro Tolentino.
        According to the indictment, beginning in January 2002, Tolentino as a principle of Omni
Consortium, devised a scheme to bring Philippine teachers to the United States in return for a
fee. In order to complete the scheme, he needed school districts to petition the United States
Government for visas for the Philippine teachers. He entered into agreements with various
school districts, including Scorro and Ysleta to interview and petition for the Philippine teachers.
The indictment further alleges that Tolentino, through Omni offered an “incentive” to the
administrators of the various school districts in the form of an all expense paid trip to the
Philippines and China in order to interview the teachers.
         The indictment further alleges that in return for the trips, the representatives of the school
district had to agree to file petitions with the Immigration and Naturalization Service for the
admission of ten teachers into the U.S. for each administrator who traveled at Omni’s expense.
In November 2002, Mario Aguilar, along with other SISD administrators, took an all-expense
paid trip to the Philippines and China paid for by Omni. In December 2002 and February 2003,
SISD administrators, at the direction of Mario Aguilar, signed and submitted petitions for H-1B
visas for twenty-six teachers to enter the United States and become employed at SISD for which
Omni and Tolentino received approximately $260,000 from the Philippine teachers.
       The indictment further alleges that again in March 2003, Mario and Magdalena Aguilar
took an all expense paid trip to the Philippines and China paid for by Omni. Once again, Mario
Aguilar, signed and submitted H-1B visas for forty-two teachers to enter the U.S. for which
Omni and Tolentino received $420,000.
        A separate indictment alleges that in November 2002, Lokey directed other YISD
employees to take an all expense paid trip to the Philippines in order to mask the appearance of
“a quid pro quo”. In the early part of 2003, Lokey signed and submitted petitions for H-1B visas
for sixty-three teachers to enter the United States form the Philippines to become employed at
YISD. Tolentino and Omni received approximately $630,00 paid by the Philippine teachers
petitioned for by YISD. A small percentage of these teachers were ever actually employed by
the school districts.
                                             — more---
       This is being investigated by the U.S. Immigration and Customs Enforcement and the
Federal Bureau of Investigation with assistance from the Internal Revenue Service, State
Department, Social Security Administration, Department of Labor and the Department of
Education. Assistant United States Attorney Brandy Gardes is prosecuting this case for the
government.


An indictment is a formal accusation of criminal conduct, not evidence of guilt. The
defendants are presumed innocent unless and until convicted through due process of law.



                                            #####
